TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Fiscal Year 2014 Statutory Review of
                Compliance With Notice of Federal Tax Lien
                         Due Process Procedures



                                      September 5, 2014

                             Reference Number: 2014-30-061




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.

Redaction Legend:
1 = Tax Return/Return Information




Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                     HIGHLIGHTS


FISCAL YEAR 2014 STATUTORY                              Procedures require address verification and, if
REVIEW OF COMPLIANCE WITH NOTICE                        applicable, resolution of the undelivered lien
OF FEDERAL TAX LIEN DUE PROCESS                         notices within 14 calendar days of receipt.
PROCEDURES                                              TIGTA selected a judgmental sample of
                                                        205 undelivered lien notices returned to the
                                                        Cincinnati (102 lien notices) and Fresno
Highlights                                              (103 lien notices) Campuses in February and
                                                        March 2014. For 61 of the 205 sampled lien
Final Report issued on                                  notices, employees did not perform the required
September 5, 2014                                       research to attempt to address the undeliverable
                                                        issue within 14 calendar days of receipt of the
Highlights of Reference Number: 2014-30-061             returned lien notice. In addition, the IRS did not
to the Internal Revenue Service Commissioners           always follow internal procedures designed to
for the Small Business/Self-Employed and the            monitor undelivered lien notices.
Wage and Investment Divisions.
                                                        WHAT TIGTA RECOMMENDED
IMPACT ON TAXPAYERS
                                                        TIGTA recommended that the Director, Campus
After filing Forms 668(Y)(c), Notices of Federal        Compliance Services, Small Business/
Tax Lien (NFTL), the IRS must notify the                Self-Employed Division, make improvements to
affected taxpayers in writing, at their last known      the handling of undelivered lien notices by
address, within five business days of the lien          ensuring that Internal Revenue Manual
filings. Taxpayers’ rights to appeal the NFTL           requirements are followed in regards to timely
filings may be jeopardized if the IRS does not          research and documentation, as well as remind
comply with this statutory requirement.                 Automated Collection System Support function
                                                        managers to provide feedback to employees
WHY TIGTA DID THE AUDIT                                 regarding timely research and documentation
TIGTA is required by law to determine annually          requirements for handling undelivered lien
whether lien notices issued by the IRS comply           notices when appropriate.
with the legal requirements set forth in Internal       In their response to the report, IRS officials
Revenue Code Section 6320(a) and related                agreed with the recommendation and plan to
guidance in the Federal Tax Liens Handbook.             take appropriate corrective action.
WHAT TIGTA FOUND
TIGTA reviewed a statistically valid sample of
133 NFTLs filed for the 12-month period
beginning July 1, 2012, and ending June 30,
2013, and determined that the IRS timely and
correctly mailed the taxpayers the notices of lien
filing and appeal rights, as required by Internal
Revenue Code Section 6320(a).
IRS regulations require that taxpayer
representatives be provided copies of all
correspondence issued to the taxpayer. The
IRS properly notified the taxpayer’s
representative in nearly all of the cases for
which the taxpayer had an authorized
representative.
However, the IRS did not always follow internal
procedures for undelivered lien notices.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 5, 2014


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                       Michael E. McKenney
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Fiscal Year 2014 Statutory Review of
                             Compliance With Notice of Federal Tax Lien Due Process
                             Procedures (Audit # 201430001)

 This report presents the results of our review to determine whether lien notices issued by the
 Internal Revenue Service (IRS) comply with the legal requirements set forth in Internal Revenue
 Code (I.R.C.) Section (§) 6320(a) and related guidance in the Federal Tax Liens Handbook. The
 Treasury Inspector General for Tax Administration is required by law to determine annually
 whether lien notices issued by the IRS comply with the legal requirements in I.R.C. § 6320(a).
 The audit is included in our Fiscal Year 2014 Annual Audit Plan and addresses the major
 management challenge area of Taxpayer Protection and Rights.
 Management’s complete response to the draft report is included as Appendix VIII.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendation. If you have any questions, please contact me or Bryce Kisler, Acting Assistant
 Inspector General for Audit (Compliance and Enforcement Operations).
                             Fiscal Year 2014 Statutory Review of Compliance With
                               Notice of Federal Tax Lien Due Process Procedures




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Lien Notices Were Mailed Timely ............................................................... Page 3
          Documentation Showed That Most Taxpayer Representatives
          Were Properly Notified ................................................................................. Page 3
          More Actions Could Be Taken to Effectively
          Work Undelivered Lien Notices ................................................................... Page 4
                    Recommendation 1:.......................................................... Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 9
          Appendix II – Major Contributors to This Report ........................................ Page 12
          Appendix III – Report Distribution List ....................................................... Page 13
          Appendix IV – Synopsis of the Internal Revenue Service
          Collection and Notice of Federal Tax Lien Filing Processes ....................... Page 14
          Appendix V – Internal Revenue Service Computer Systems
          Used in the Filing of Notices of Federal Tax Liens ...................................... Page 16
          Appendix VI – Confidence Intervals for Notification of
          Taxpayer Representatives Error Rates Reported During
          Fiscal Years 2010 Through 2013 .................................................................. Page 17
          Appendix VII – Statutory Lien Reports Issued During
          Fiscal Years 2009 Through 2013 .................................................................. Page 18
          Appendix VIII – Management’s Response to the Draft Report ................... Page 19
         Fiscal Year 2014 Statutory Review of Compliance With
           Notice of Federal Tax Lien Due Process Procedures




                    Abbreviations

ACS           Automated Collection System
ALS           Automated Lien System
CAF           Centralized Authorization File
ICS           Integrated Collection System
IDRS          Integrated Data Retrieval System
I.R.C.        Internal Revenue Code
IRS           Internal Revenue Service
NFTL          Notice of Federal Tax Lien
TIGTA         Treasury Inspector General for Tax Administration
                         Fiscal Year 2014 Statutory Review of Compliance With
                           Notice of Federal Tax Lien Due Process Procedures




                                             Background

The Internal Revenue Service (IRS) attempts to collect Federal taxes due from taxpayers by
sending letters, making telephone calls, and meeting face-to-face with taxpayers. The IRS has
the authority to attach a claim,1 commonly referred to as a Federal tax lien, to the taxpayer’s
assets for the amount of unpaid tax when the taxpayer neglects or refuses to pay. The IRS files a
Form 668(Y)(c), Notice of Federal Tax Lien (NFTL), in appropriate local government offices to
notify interested parties that a lien exists.2
Since January 19, 1999, Internal Revenue Code (I.R.C.) Section (§) 6320(a) has required the IRS
to notify taxpayers, in writing, within five business days of the filing of an NFTL. The IRS is
required to notify taxpayers the first time an NFTL is
filed for each tax period. The lien notice3 is used for
this purpose and advises taxpayers that they have               The IRS is required to notify
30 calendar days, after that five-day period, to request a         taxpayers the first time
                                                                       an NFTL is filed.
hearing with the IRS’s Office of Appeals. The lien
notice indicates the date on which this 30-day period
expires.
The law also requires that the lien notice explain, in simple terms, the amount of unpaid tax, the
administrative appeal rights available to the taxpayer, and the provisions of the law and the
procedures relating to the release of the lien on the property. The lien notice must be given in
person, left at the taxpayer’s home or business, or sent by certified or registered mail to the
taxpayer’s last known address.4
Depending on employee access and case status, NFTL requests can be generated using one of
three IRS systems:5 1) the Integrated Collection System (ICS), 2) the Automated Collection
System (ACS), or 3) directly input into the Automated Lien System (ALS).
In Fiscal Year 2011, the IRS implemented the Fresh Start initiative to provide aid to struggling
taxpayers. This initiative increased the threshold when NFTL filing determinations are generally
made from $5,000 to $10,000. Figure 1 shows the number of NFTLs filed for Fiscal Years 2009
through 2013 and that the number of NFTLs filed decreased from to 707,768 to 602,005
(15 percent) between Fiscal Years 2012 and 2013.


1
  I.R.C. § 6321.
2
  See Appendix IV for a synopsis of the IRS collection and NFTL filing processes.
3
  Letter 3172, Notice of Federal Tax Lien Filing and Your Right to a Hearing Under IRC 6320.
4
  The last known address is the one shown on the most recently filed and properly processed tax return, unless the
IRS received notification of a different address.
5
  See Appendix V for detailed descriptions of the IRS computer systems used in the filing of the NFTLs.
                                                                                                            Page 1
                             Fiscal Year 2014 Statutory Review of Compliance With
                               Notice of Federal Tax Lien Due Process Procedures



            Figure 1: Number of NFTLs Filed for Fiscal Years 2009 Through 2013




             Source: IRS Data Book for Fiscal Years 2009 through 2013.

The Treasury Inspector General for Tax Administration (TIGTA) is required to determine
annually whether the IRS complied with the law regarding the notification of affected taxpayers
and their representatives when filing NFTLs.6 This is our sixteenth annual audit to determine
whether the IRS complied with the legal requirements of I.R.C. § 6320(a) and its own related
internal guidelines for issuing lien notices.7 In the past five years, we have twice reported full
compliance with the law of timely notifying taxpayers and three times reported an error rate of
2 percent or less. In four of the last five years, we reported that the IRS improved but had not
achieved full compliance with internal guidelines involving power of attorney notifications.
This review was performed at the Small Business/Self-Employed Division’s Centralized Lien
Processing Operation and the ACS Support function in Covington, Kentucky; the Wage and
Investment Division’s ACS Support function in Fresno, California; and with information
obtained from the Small Business/Self-Employed Division’s Office of Collection Policy in
New Carrollton, Maryland, during the period February through May 2014. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.

6
    I.R.C. § 7803(d)(1)(A)(iii).
7
    See Appendix VII for a list of the prior five reports.
                                                                                            Page 2
                          Fiscal Year 2014 Statutory Review of Compliance With
                            Notice of Federal Tax Lien Due Process Procedures




                                      Results of Review

Lien Notices Were Mailed Timely
Tests of a statistically valid random sample of 133 NFTLs from the 614,616 NFTLs filed
between July 1, 2012, and June 30, 2013, showed that the IRS timely and correctly mailed the
copy of the NFTL and notice of appeal rights to all 133 taxpayers, as required by
I.R.C. § 6320(a).

Documentation Showed That Most Taxpayer Representatives Were
Properly Notified
Taxpayer representative information is contained on the Centralized Authorization File (CAF)8
that is located on the Integrated Data Retrieval System (IDRS).9 Using the IDRS, employees can
research the CAF to identify the types of authorizations given to taxpayer representatives. IRS
procedures10 require that any notice or other written communication (or a copy thereof) required
or permitted to be given to a taxpayer in any matter before the IRS must be given to the taxpayer
and, unless restricted by the taxpayer, to the representative. Accordingly, IRS procedures require
the requestor of an NFTL to ensure that he or she notifies the Centralized Lien Processing
Operation of all powers of attorney and co-obligors that are to be notified. More specifically,
when an NFTL is filed, IRS procedures require that a copy of the lien notice be sent to the
taxpayer’s representative as soon as possible after the lien notice is sent to the taxpayer.
Tests of a statistically valid sample of 133 NFTLs included 38 taxpayers with representatives
authorized to receive notifications at the time the NFTLs were filed. *****1***** taxpayers,
ALS records did not indicate that the IRS sent copies of the lien notice to the representative.
However, because there was **************1****** did not appear to be systemic in nature,
we are not making any recommendations for this issue. Figure 2 shows that the error




8
  The CAF contains information about the types of authorizations taxpayers have given their representatives for their
tax returns.
9
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
10
   Conference and Practice Requirements, Statement of Procedural Rules, 26 C.F.R. § 601.506 (2009).
                                                                                                             Page 3
                           Fiscal Year 2014 Statutory Review of Compliance With
                             Notice of Federal Tax Lien Due Process Procedures



 rate for this issue has been reduced from 26 percent11 in our Fiscal Year 2010 report to***1***12
 in our Fiscal Year 2014 report.
      Figure 2: Error Rates Reported on the Notification of Taxpayer Representatives
                       Sampled Lien Cases                 Sampled Lien Cases Not
 Report Fiscal       Requiring Representative             Receiving Representative
    Year                   Notification                         Notification                      Error Rate
    2010                        31                                   8                               26%
    2011                        30                                   4                               13%
    2012                        22                                   4                               18%
    2013                        47                                   5                               11%
    2014                        38                                ***1***                          ***1***
Source: Prior and current year results of TIGTA’s tests on the notification of taxpayer representatives.

 More Actions Could Be Taken to Effectively Work Undelivered Lien
 Notices
 Employees are not always following procedures, which could preclude the IRS from determining
 whether undelivered lien notices are being researched timely. Additionally, employees are not
 always updating the undelivered status of lien notices as required by IRS procedures. As a
 result, there is no record of the mail status of these lien notices.
 IRS procedures require that employees send taxpayers another lien notice to a new address if all
 of the following factors are present:
          The originally mailed notice is returned as undelivered mail.
          Research confirms the original lien notice was not sent to the last known address.
          The new address was effective prior to or during the same cycle13 the NFTL was
           requested.
 Collection function employees are responsible for certain actions when notices are returned as
 undelivered. For example, ACS Support employees are required to research the IDRS within
 14 calendar days of receipt of the undelivered lien notice to ensure that the address on the



 11
    See Appendix VI for the confidence intervals pertaining to the notification of taxpayer representatives error rates
 reported during Fiscal Years 2010 through 2013.
 12
    The point estimate projection is based on a two-sided 90 percent confidence interval. We are 90 percent confident
 that the true percentage of taxpayers with representatives whose representative was not notified is between
 *********1**********
 13
    Cycle refers to the IRS method of documenting dates, i.e., Processing Cycle 201102 is the second week of
 January 2011.
                                                                                                               Page 4
                         Fiscal Year 2014 Statutory Review of Compliance With
                           Notice of Federal Tax Lien Due Process Procedures



original lien notice is correct. If the employee cannot find a new address on the computer
system, the undelivered lien notice will be destroyed and a new notice is not issued.
If the address on the lien notice is not the last known address and a different address was in
effect prior to the NFTL being requested, employees should issue a new lien notice to the new
address. A new lien notice is created by using an option in the ALS.
We selected a judgmental sample14 of 205 undelivered lien notices returned to the Cincinnati
(102 lien notices) and Fresno (103 lien notices) Campuses15 in February and March 2014. The
sample included only returned lien notices identified as undelivered and did not include returned
mail identified as refused or unclaimed. A test of undelivered lien notices identified 28 of the
205 lien notices for which the address on the IRS computer system and the original lien notice
did not agree. For 22 of the 28 notices, the address on the IRS computer system was updated
after the original lien notice was sent to the taxpayer. Therefore, no additional action was
required. However, for six of the 28 notices, the address was updated prior to the cycle the
NFTL was prepared in the ALS. We determined that a lien notice was sent to the six taxpayers
using the updated address in accordance with IRS procedures.

Employees are not always following internal procedures for undelivered lien
notices
IRS procedures require address verification and, if applicable, resolution (request to have the lien
notice reissued) of the undelivered lien notices within 14 calendar days of receipt in the ACS
Support function. For our judgmental sample of 205 lien notices, we reviewed computer system
audit trails to assess whether IRS employees performed timely research to determine whether the
addresses were correct on the originally mailed notices. We determined that 144 of the
205 cases were researched timely by ACS Support function employees.
In January 2012, IRS procedures were revised to require ACS Support function employees to
document the date undelivered lien notices are received in the ACS Support function and the
date research is completed. Documentation should be noted in the ACS action history codes
(if the taxpayer’s account is still open) or in the Accounts Management System16 narrative
history (if the taxpayer’s account is closed). While 144 cases were researched timely, 19 of the
144 cases did not have the research properly documented.
Fresno Campus: ***1******* undelivered lien notices that were not researched timely were
processed by the Fresno Campus. The ACS Support function received date was documented in
***1******* cases that were timely researched.

14
   A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
15
   A campus is the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
16
   The Account Management System is a computer-based system used to answer and resolve all taxpayer account-
related inquiries. The Accounts Management System provides a common interface that allows users of multiple IRS
systems to view history and comments from other systems.
                                                                                                            Page 5
                         Fiscal Year 2014 Statutory Review of Compliance With
                           Notice of Federal Tax Lien Due Process Procedures



Cincinnati Campus: ***1*** *****undelivered lien notices that were not researched timely
were processed by the Cincinnati Campus. *****1******for which timely research was not
properly documented were processed by the Cincinnati Campus.
Without documenting the ACS Support function received date, the IRS may be unable to
determine whether undelivered lien notices are being researched timely.

Employees are still not always following procedures designed to monitor
undelivered lien notices
In August 2007, procedures for handling undelivered lien notices were revised so that:
        The undeliverable notice is returned directly to the requesting employee or function.
        Employees handling undelivered lien notices could input a specific IDRS transaction
         code with an appropriate action code. The transaction code signifies that the lien notice
         was returned and the action code indicates the reason, i.e., undelivered, unclaimed, or
         refused.
In August 2009, the weekly systemic extract from the ALS to the Master File17 was enhanced to
include the undeliverable status (transaction code and action code). When a lien notice is
returned undelivered and research has been completed regarding an updated address, the
employee can request the lien notice screen on the ALS be updated with the undelivered status or
go to the lien notice screen themselves and indicate the undelivered status. When the ALS is
used to update the status of the lien notice, no additional input is necessary to update the status
on the IDRS.
In November 2013, the ACS Support function’s Internal Revenue Manual18 was updated to
require ACS Support function employees to use the ALS lien notice screen to prompt the input
of this transaction code and action code combination. For 126 of the 144 cases that were
researched timely, a transaction code and action code were input to the IDRS. Of the 18 cases
for which the transaction code and associated action code were not properly entered, ***1***
were processed by the Cincinnati Campus.
Compliance with these procedures is important because it allows management to review the
handling of undelivered lien notices. Because ACS Support function employees are not always
updating taxpayers’ data in the ALS, management does not have the information needed to
ensure and enforce the timely resolution of the undelivered lien notices.
Further, because not all Cincinnati Campus employees are consistently following the procedures
to enter the undelivered notice status into the ALS, the information about the undelivered lien


17
   The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
18
   Internal Revenue Manual 5.19.6.17.4 (Nov. 4, 2013).
                                                                                                            Page 6
                         Fiscal Year 2014 Statutory Review of Compliance With
                           Notice of Federal Tax Lien Due Process Procedures



notice is limited to only those employees working the undelivered mail. IRS management, as
well as Accounts Management function19 employees and Centralized Lien Processing Operation
employees, who have access to the ALS do not have access to information on undelivered lien
notices that are not entered into the ALS as required. As a result, other IRS functional
employees, such as Taxpayer Assistance Center20 employees, would be unable to answer
taxpayer questions about whether the lien notices were delivered.
In response to our Fiscal Year 2013 report, the IRS issued a Service-Wide Electronic Research
Program Alert and updated the Internal Revenue Manual to require that the ACS Support
function document the received date on either the ACS or the Accounts Management System
(dependent on where the case resides). In addition, the ACS Support function was required to
begin using the feature in the ALS for systemic generation of the transaction code and action
code combination on undelivered lien notices. Although these corrective actions improved
compliance with the procedures, they were not completely effective and more effective controls
should be established.

Management took action to correct an ALS programming error
Although most ACS Support function employees complied with the procedures to input the
appropriate transaction code and action code combination in our sampled undelivered lien
notices cases, the ALS programming erroneously reversed the action codes for undelivered and
unclaimed lien notices. Specifically, when an ACS Support function employee used the
command code to update the delivery status of a returned lien notice and selected “undelivered,”
the action code for “unclaimed” was uploaded to the Master File. If “unclaimed” was selected,
the action code for “undelivered” was uploaded. We advised management of this issue on
April 21, 2014. Management advised us they had already discovered the ALS programming
issue and had corrected it on March 30, 2014. Management confirmed that this condition existed
from November 4, 2013, through March 30, 2014. Management also advised us that they are
reviewing the feasibility of correcting the previous uploads for which the codes were incorrectly
uploaded.

Recommendation
Recommendation 1: The Director, Campus Compliance Services, Small Business/
Self-Employed Division, should make improvements to the handling of undelivered lien notices
by ensuring that Internal Revenue Manual requirements are followed in regards to timely
research and documentation, as well as remind ACS Support function managers to provide


19
   The Accounts Management function is responsible for providing taxpayers with information on the status of their
returns and refunds and for resolving the majority of issues and questions to settle their accounts.
20
   A Taxpayer Assistance Center is an IRS office with employees who answer questions, provide assistance, and
resolve account-related issues for taxpayers face to face.
                                                                                                           Page 7
                    Fiscal Year 2014 Statutory Review of Compliance With
                      Notice of Federal Tax Lien Due Process Procedures



feedback to employees regarding timely research and documentation requirements for handling
undelivered lien notices when appropriate.
       Management’s Response: IRS management agreed with this recommendation. In
       their response, management plans to annually review performance to ensure that the
       ACS Support function is adhering to the Internal Revenue Manual requirements
       regarding timely research and documentation. Also, ACS Support function management
       will ensure that employees processing undelivered lien notices are properly trained and
       are receiving regular feedback via performance reviews.




                                                                                        Page 8
                           Fiscal Year 2014 Statutory Review of Compliance With
                             Notice of Federal Tax Lien Due Process Procedures



                                                                                                   Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether lien notices issued by the IRS comply with the
legal requirements set forth in I.R.C. § 6320(a) and related guidance in the Federal Tax Liens
Handbook. To accomplish this objective, we:
I.         Determined whether lien notices issued by the IRS complied with legal requirements set
           forth in I.R.C. § 6320(a) and related internal guidelines.
           A. Selected a statistically valid random sample of 133 NFTLs for review from an ALS1
              extract of all NFTLs filed by the IRS nationwide between July 1, 2012, and
              June 30, 2013.
               Population:                               614,616
               Confidence Level:                         90 percent
               Expected Rate of Occurrence:              2 percent
               Precision Rate:                           ±2 percent
           B. Validated the ALS extract by comparing a sample of records to online data. We
              determined that the data were sufficiently reliable for purposes of this report.
           C. Determined whether the sampled NFTLs adhered to legal guidelines regarding timely
              notifications of lien filings to the taxpayer, the taxpayer’s spouse, or business partners
              by reviewing data from the ALS, the ICS, the ACS, the IDRS, and the certified mail
              lists (U.S. Postal Service Form 3877, Firm Mailing Book for Accountable Mail).
           D. Evaluated the controls and procedures established for transferring, storing, and
              safeguarding certified mail lists at the Centralized Lien Processing Operation for
              recordkeeping.
           E. Determined if taxpayers’ representatives were provided a copy of the lien due process
              notice by reviewing data from the ALS, the IDRS, the ICS, and the ACS.
               1. Reviewed IDRS screens for CAF indicators (Transaction Code 960) for all
                  sample cases.
               2. Reviewed ALS history screens for accounts with CAF indicators to see whether
                  notices were mailed to taxpayers’ representatives.




1
    See Appendix V for detailed descriptions of the IRS computer systems used in the filing of NFTLs.
                                                                                                        Page 9
                         Fiscal Year 2014 Statutory Review of Compliance With
                           Notice of Federal Tax Lien Due Process Procedures



             3. For the sampled lien notices without the taxpayer’s representative/power of
                attorney and co-obligors notifications on the ALS histories, reviewed the ACS
                and the ICS for taxpayer representative indicators and determined whether
                taxpayer representatives/powers of attorney should have been notified.
II.     Evaluated the procedures for processing lien notices (Letter 3172, Notice of Federal Tax
        Lien Filing and Your Right to a Hearing Under IRC 6320) that are returned undelivered.
        A. Selected a judgmental2 sample of unprocessed (unopened) mail containing
           205 undelivered lien notices returned to the Fresno (103) and Cincinnati (102)
           Campuses3 in February and March 2014, and recorded the taxpayer’s name, address,
           Social Security Number, Serial Lien Identification number, and date received at the
           respective campus mailroom. Mailroom personnel from the Fresno and Cincinnati
           Campuses provided us with confirmation of the dates the sampled undelivered lien
           notices were delivered to the ACS Support functions. We used a judgmental sample
           because we could not determine the population of undelivered lien notices at those
           two campuses.
        B. For each sample case, researched the IDRS to determine whether the address on the
           Master File4 matched the address on the undelivered lien notice.
        C. For each sample case, reviewed taxpayer audit trails and the ACS and Accounts
           Management System histories to determine whether employees performed the
           required IDRS research for resolution of the undeliverable status within 14 calendar
           days of receipt of the undelivered lien notice.
        D. For each sample case of an undelivered lien notice in which appropriate research was
           completed for resolution of the undeliverable status, verified that a Transaction
           Code 971 with an Action Code 253 was entered into the IDRS.
III.    Determined whether internal guidelines have been implemented or modified since our
        last review by discussing procedures and controls with appropriate IRS personnel in the
        National Headquarters.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the

2
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
3
  A campus is the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
4
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                           Page 10
                     Fiscal Year 2014 Statutory Review of Compliance With
                       Notice of Federal Tax Lien Due Process Procedures



following internal controls were relevant to our audit objective: the Small Business/
Self-Employed Division Collection function’s policies, procedures, and practices for timely
notifying taxpayers of lien filings and timely verifying addresses of undelivered lien notices. We
evaluated these controls by reviewing samples of lien notices sent to taxpayers and lien notices
returned to the IRS as undelivered.




                                                                                          Page 11
                    Fiscal Year 2014 Statutory Review of Compliance With
                      Notice of Federal Tax Lien Due Process Procedures



                                                                             Appendix II

                 Major Contributors to This Report

Bryce Kisler, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Tim Greiner, Audit Manager
Mike Della Ripa, Lead Auditor
Michael Garcia, Senior Auditor
Julian O’Neal, Senior Auditor
Meaghan Tocco, Senior Auditor
Mark Willoughby, Senior Auditor
Steve Meyers, Auditor
Bridgid Shannon, Auditor




                                                                                     Page 12
                    Fiscal Year 2014 Statutory Review of Compliance With
                      Notice of Federal Tax Lien Due Process Procedures



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Enterprise Collection Strategy, Small Business/Self-Employed Division SE:S:CS
Director, Collection Policy, Small Business/Self-Employed Division SE:S:CS:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                   Page 13
                           Fiscal Year 2014 Statutory Review of Compliance With
                             Notice of Federal Tax Lien Due Process Procedures



                                                                                                 Appendix IV

    Synopsis of the Internal Revenue Service Collection
      and Notice of Federal Tax Lien Filing Processes

The collection of unpaid tax begins with a series of letters (notices) sent to taxpayers advising
them of their debt and asking for payment of the delinquent tax. IRS computer systems are
programmed to mail these notices when certain criteria are met. If the taxpayer does not respond
to these notices, the account is transferred for either personal or telephone contact.
          IRS employees who make personal (face-to-face) contact with taxpayers are called
           revenue officers and work in various locations. The ICS1 is used to track collection
           actions taken on taxpayer accounts.
          IRS employees who make only telephone contact with taxpayers work in call sites. The
           ACS is used in the call sites to track collection actions taken on taxpayer accounts.
When these efforts have been taken and the taxpayer has not paid the tax liability, designated
IRS employees are authorized to file an NFTL by sending a Form 668(Y)(c), Notice of Federal
Tax Lien, to the appropriate local government offices. The NFTLs protect the Federal
Government’s interest by informing the public of its claim to the taxpayer’s assets for the
amount of unpaid tax. The Federal tax lien is created by I.R.C. § 6321 when:
          The IRS has made an assessment and given the taxpayer notice of the assessment, stating
           the amount of the tax liability and demanding payment.
          The taxpayer has neglected or refused to pay the amount after the notice and demand for
           payment.
The right to file an NFTL is found in I.R.C. § 6323. When employees request the filing of an
NFTL using either the ICS or the ACS, the ALS processes the NFTL filing requests from both
systems. In an expedited situation, employees can manually prepare the NFTL. Even for
manually prepared NFTLs, the ALS controls and tracks the NFTLs and initiates subsequent lien
notices2 to notify responsible parties of the NFTL filings and of their appeal rights. The ALS
maintains an electronic database of all open NFTLs and updates the IRS’s primary computer
records to indicate that an NFTL has been filed.
Most lien notices are mailed to taxpayers by certified or registered mail, rather than delivered in
person. To maintain a record of the notices, the IRS prepares a certified mail list (U.S. Postal


1
    See Appendix V for detailed descriptions of the IRS computer systems used in the filing of the NFTLs.
2
    Letter 3172, Notice of Federal Tax Lien Filing and Your Right to a Hearing Under IRC 6320.
                                                                                                            Page 14
                      Fiscal Year 2014 Statutory Review of Compliance With
                        Notice of Federal Tax Lien Due Process Procedures



Service Form 3877, Firm Mailing Book for Accountable Mail), which identifies each notice that
is to be mailed. The lien notices and a copy of the certified mail list are delivered to the U.S.
Postal Service. A U.S. Postal Service employee ensures that all notices are accounted for, date
stamps the list, and returns a copy to the IRS. The stamped certified mail list is the only
documentation the IRS has that certifies the date on which the notices were mailed. IRS
guidelines require that the stamped certified mail list be retained for 10 years after the end of the
processing year.




                                                                                             Page 15
                         Fiscal Year 2014 Statutory Review of Compliance With
                           Notice of Federal Tax Lien Due Process Procedures



                                                                                               Appendix V

      Internal Revenue Service Computer Systems
    Used in the Filing of Notices of Federal Tax Liens

Automated Collection System is a computerized call site inventory system that maintains
balance due accounts and return delinquency investigations. ACS function employees enter all
of their case file information (online) on the ACS. The NFTLs requested using the ACS are
uploaded to the ALS, which generates the Form 668(Y)(c), Notice of Federal Tax Lien, and
related lien notices and updates the IRS’s primary computer files to indicate that the NFTLs have
been filed.
Automated Lien System is a comprehensive database that prints the NFTLs, generates lien
notices, stores taxpayer information, and documents all lien activity. Lien activities on both
ACS and ICS cases are controlled on the ALS by Case Processing functions at the Cincinnati,
Ohio, Campus.1 Employees at the Cincinnati Campus process the NFTLs and respond to
taxpayer inquiries using the ALS.
Integrated Collection System is an IRS computer system with applications designed around
each of the main collection tasks such as opening a case, assigning a case, building a case,
performing collection activity, and closing a case. The ICS is designed to provide management
information, create and maintain case histories, generate documents, and allow online approval
of case actions. NFTL requests made using the ICS are uploaded to the ALS. The ALS
generates the NFTL and related lien notices and updates the IRS’s primary computer files to
indicate the NFTLs have been filed.
Integrated Data Retrieval System is an online data retrieval and data entry system that
processes transactions entered from terminals located in campuses and other IRS locations. It
enables employees to perform such tasks as researching account information, requesting tax
returns, entering collection information, and generating collection documents. The IDRS serves
as a link from campuses and other IRS locations to the Master File2 for the IRS to maintain
accurate records of activity on taxpayers’ accounts.




1
  A campus is the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
2
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                        Page 16
                          Fiscal Year 2014 Statutory Review of Compliance With
                            Notice of Federal Tax Lien Due Process Procedures



                                                                                               Appendix VI

    Confidence Intervals for Notification of Taxpayer
     Representatives Error Rates Reported During
            Fiscal Years 2010 Through 2013

    Two-sided 90 percent confidence intervals using the exact binomial method
            for the exception rate for Fiscal Years 2010 through 2013


                                              Sample Lien
                     Sample Lien
                                               Cases Not
Report Fiscal       Cases Requiring
                                               Receiving             Error Rate           Confidence Interval
   Year             Representative
                                             Representative
                      Notification
                                              Notification
    2010                     31                       8                  26%           Between 13.52% and 41.73%

    2011                     30                       4                  13%           Between 4.70% and 28.00%

    2012                     22                       4                  18%           Between 6.48% and 36.90%

    2013                     47                       5                  11%           Between 4.28% and 21.10%

Source: Prior year results of TIGTA’s tests on the notification of taxpayer representatives.




                                                                                                        Page 17
                    Fiscal Year 2014 Statutory Review of Compliance With
                      Notice of Federal Tax Lien Due Process Procedures



                                                                           Appendix VII

              Statutory Lien Reports Issued During
                Fiscal Years 2009 Through 2013

TIGTA, Ref. No. 2009-30-089, Additional Actions Are Needed to Protect Taxpayers’ Rights
During the Lien Due Process (June 2009).
TIGTA, Ref. No. 2010-30-072, Actions Are Needed to Protect Taxpayers’ Rights During the
Lien Due Process (Jul. 2010).
TIGTA, Ref. No. 2011-30-051, Challenges Remain When Processing Undeliverable Mail and
Preventing Violations of Taxpayers’ Rights During the Lien Due Process (May 2011).
TIGTA, Ref. No. 2012-30-057, Problems Persist When Processing Undelivered Lien Notices
and Notifying Taxpayers’ Representatives (May 2012).
TIGTA, Ref. No. 2013-30-072, Fiscal Year 2013 Statutory Review of Compliance With Lien Due
Process Procedures (Jul. 2013).




                                                                                    Page 18
                         Fiscal Year 2014 Statutory Review of Compliance With
                           Notice of Federal Tax Lien Due Process Procedures



                                                                                             Appendix VIII

         Management’s Response to the Draft Report
                                         DEPARTMENT OF THE TREASURY
                                          INTERNAL REVENUE SERVICE
                                            WASHINGTON, D.C. 20224

             COMMISSIONER
SMALL BUSINESS/SELF-EMPLOYED DIVISION

                                                  August 4, 2014



MEMORANDUM FOR MICHAEL E. MCKENNEY
               DEPUTY INSPECTOR GENERAL FOR AUDIT

FROM:                   Karen Schiller /s/ Karen Schiller
                        Commissioner, Small Business/Self-Employed Division

SUBJECT:                Draft Audit Report - Fiscal Year 2014 Statutory Review of Compliance
                         With Notice of Federal Tax Lien Due Process Procedures
                        (Audit# 201430001)

Thank you for the opportunity to review your draft report titled "Fiscal Year 2014 Statutory Review
of Compliance With Notice of Federal Tax Lien Due Process Procedures". We agree with your
recommendation and appreciate your acknowledgment that we timely and correctly mailed copies
of the notice of federal tax lien (NFTL) and notice of appeal rights in every case you reviewed.

Since 1998, TIGTA has been required to annually review whether the lien notices we issue comply
with all legal requirements. Consistent with the results of your reviews over the past 5 years, you
found that we generally followed all applicable statutory requirements and IRS procedures. Specifically,
you found that we timely and correctly mailed copies of the NFTLs and notices of appeal rights to all
133 taxpayers whose cases you reviewed and we properly sent copies of the notices to the taxpayers'
representatives in more than ***1*****of the cases in which the taxpayers were represented. Importantly,
no taxpayer rights were violated in those cases in which the taxpayers' representatives did not receive a
copy of the notice. We are proud of this record of success and appreciate your acknowledgment that
we generally followed all legal requirements and IRS procedures.

You have recommended we take additional steps to ensure all required actions are completed when
 lien notices are returned undelivered. While you recognized our significant improvements in resolving
notices returned as undeliverable, you suggested that we improve our processes for ensuring IRM
requirements are followed and documented. You also suggested that we remind our Automated
 Collection System Support Function managers to provide feedback to employees regarding timely
 research and documentation requirements for handling undelivered lien notices when appropriate.
We agree with these suggestions. We also



                                                                                                            Page 19
Fiscal Year 2014 Statutory Review of Compliance With
  Notice of Federal Tax Lien Due Process Procedures




                                                   Page 20
Fiscal Year 2014 Statutory Review of Compliance With
  Notice of Federal Tax Lien Due Process Procedures




                                                   Page 21
